iApptidfxA.
Appellate Case: 20-6163

Document: 010110475190

Date Filed: 02/04/2021

UNITED STATES COURT OF APPEALS

Page: 1
FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

February 4, 2021
Christopher M. Wolpert
Clerk of Court

JAMAR J. DRAPER,
Petitioner - Appellant,
v.
JIMMY MARTIN,

No. 20-6163
(D.C. No. 5:18-CV-01195-R)
(W.D. Okla.)

Respondent - Appellee.

ORDER DENYING CERTIFICATE OF APPEALABILITY*

Before BRISCOE, BALDOCK, and CARSON, Circuit Judges.

Petitioner Jamar Draper, an Oklahoma state prisoner appearing pro se, requests a
certificate of appealability (COA) so that he may appeal the district court’s order denying
his petition for writ of habeas corpus pursuant to 28 U.S.C. § 2254. Because Draper has
failed to make a substantial showing of the denial of a constitutional right, we deny his
request for a COA and dismiss the matter.

* This order is not binding precedent except under the doctrines of law of the case,
res judicata, and collateral estoppel. It may be cited, however, for its persuasive value
consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Appellate Case: 20-6163

Document: 010110475190

Date Filed: 02/04/2021

Page: 2

I
A
In the early morning hours of May 1, 2009, Draper and two other individuals,
Douglas Hendrix and Corey Moreland, went to a home in Langston, Oklahoma, where
Claude Sandies and Marcus Whitfield lived. Sandies allegedly owed $100 to LaDonna
Cotton, the mother of Draper’s children, for a cell phone that Cotton gave to Sandies.
Draper, Hendrix, and Moreland disguised themselves with ski masks or pantyhose over
their faces (the record indicates that two of the men wore ski masks and the third used
pantyhose; the record does not identify whether Draper wore a ski mask or the
pantyhose). The three men (hereinafter the three assailants) were each armed with a
firearm.
At approximately 1:30 a.m., the three assailants kicked in the front door and
entered the home. Between 1:30 a.m. and 4:00 a.m., the three assailants held Sandies,
Whitfield, and their two female companions, L.B. and T.N., against their will at gunpoint.
During that time, the three assailants bound and severely beat Sandies and Whitfield.
The three assailants also repeatedly raped and sodomized L.B. and T.N. During the
course of the siege, the three assailants also searched the home for money and valuable
items, and robbed Sandies, Whitfield, and L.B. of personal items. The three assailants
also told the four victims that only two of them would survive the night. The siege
ultimately ended when either Draper or Moreland accidentally shot Hendrix. That
prompted the three assailants to leave the house and allowed the four victims to escape
and call the police.
2

Appellate Case: 20-6163

Document: 010110475190

Date Filed: 02/04/2021

Page: 3

B
On May 2, 2009, Draper was taken into custody and admitted, in part, to his role
in the offenses. Draper was subsequently charged in the District Court of Logan County,
Oklahoma, with multiple offenses.
On October 4, 2010, Draper pleaded guilty to one count of burglary in the first
degree, one count of conjoint robbery with a firearm, one count of assault with a
dangerous weapon while masked, four counts of first degree rape, three counts of forcible
sodomy, one count of possession of a firearm during commission of a felony, one count
of conspiracy, two counts of sexual battery, and one count of kidnapping.
The state trial court sentenced Draper to: (1) twenty-five years’ imprisonment,
with all but the first fifteen years suspended, on the burglary, robbery, and rape
convictions; (2) twenty years’ imprisonment, with all but the first fifteen years
suspended, on the forcible sodomy convictions; (3) ten years’ imprisonment on the
possession of a firearm, kidnapping, and one of the conspiracy convictions; and (4) five
years’ imprisonment on the assault with a dangerous weapon and remaining two
conspiracy convictions. The state trial court ordered all of the sentences to run
concurrently.
On October 14, 2010, Draper moved to withdraw his guilty plea. That motion was
denied by the state trial court on November 12, 2010, after a hearing.
Draper did not file a direct appeal. On August 31,2012, Draper filed a pro se
application for state post-conviction relief alleging that his trial counsel was ineffective
and that he was coerced into pleading guilty. The state trial court denied Draper’s motion
3

Appellate Case: 20-6163

Document: 010110475190

Date Filed: 02/04/2021

Page: 4

by written order on November 16, 2012. In doing so, the state trial court found that
Draper entered his pleas of guilty knowingly and voluntarily, and that Draper was not
coerced into entering his guilty pleas. The state trial court also concluded that Draper’s
trial counsel was not ineffective.
Draper appealed to the Oklahoma Court of Criminal Appeals (OCCA). In that pro
se appeal, Draper raised the following issues, several of which were not included in his
original application for state post-conviction relief: (1) the state trial court abused its
discretion by denying Draper’s motion to withdraw his guilty plea; (2) Draper’s Double
Jeopardy rights were violated when he was convicted of and sentenced for two crimes,
first degree burglary and conjoint armed robbery, that covered the same criminal conduct;
(3) his trial counsel was ineffective and coerced him into pleading guilty by telling him
that he would receive four life sentences if he went to trial; (4) his sentences were
excessive because he was only an accessory to many of the crimes; (5) he was charged
with sex offenses that he did not personally commit; (6) prosecutorial misconduct; and
(7) “[gjuilt [b]y [association.” ECF No. 34-5 at 6. The OCCA declined jurisdiction over
the appeal on the grounds that it was untimely (i.e., that it “should have been filed ... on
or before December 16, 2012, but was not filed until January 9, 2013”). ECF No. 34-6 at
1.
In April 2013, Draper filed a second application for state post-conviction relief
with the state trial court. In that application, Draper argued that (1) he was denied the
right to withdraw his guilty plea, (2) his trial counsel was ineffective and misled him into
pleading guilty, and (3) the state trial court abused its discretion by refusing to allow him
4

Appellate Case: 20-6163

Document: 010110475190

Date Filed: 02/04/2021

Page: 5

to withdraw his guilty plea. On January 17, 201"4, the state trial court denied "Drapers
second application as procedurally barred.
On February 2, 2014, Draper filed with the state trial court a third application for
state post-conviction relief and a motion for appeal out of time. On June 18, 2015, the
state trial court granted Draper’s application and recommended that he be allowed to file
an appeal out of time with the OGCA. On August 6, 2015, the OCCA granted Draper’s
request for a certiorari appeal out of time.
On January 26, 2016, Draper, through appointed counsel, filed a petition for writ
of certiorari with the OCCA. Draper asserted four propositions of error in his petition:
(1) that there was an insufficient factual basis for his guilty plea; (2) his guilty plea was
not knowingly and voluntarily made; (3) his convictions for conjoint robbery with a
firearm, assault with a dangerous weapon, and possession of a firearm during commission
of a felony violated the prohibition against double punishment; and (4) his trial counsel
was ineffective in several respects in encouraging him to enter a plea of guilty. On
August 12, 2016, the OCCA issued a summary opinion denying Draper’s petition and
affirming the judgment and sentence of the state trial court.
On June 26, 2017, Draper filed with the state trial court a fourth pro se application
for state post-conviction relief arguing that: (1) his convictions for rape, forcible sodomy,
burglary in the first degree, and conjoint robbery with a firearm violated the prohibition
against double punishment for the same criminal conduct; (2) he was actually innocent of
the sex offenses; (3) his due process rights were violated because his trial counsel was
ineffective and because the DNA evidence related to the sex offenses was inconclusive;
5

Appellate Case: 20-6163

Document: 010110475190

Date Filed: 02/04/2021

Page: 6

and (4) the state trial court coerced his confession. The state trial court denied the
application, concluding that (1) the doctrine of res judicata barred claims that were raised
or could have been raised in Draper’s direct appeal, and (2) Draper provided no
substantive evidence to support his claim of actual innocence.
On June 22, 2018, Draper filed a pro se petition in error with the OCCA. On
September 24, 2018, the OCCA issued a written order affirming the state trial court’s
denial of post-conviction relief. The OCCA noted that “Draper’s claims of double
jeopardy, that he was convicted of crimes that he did not actually commit, and that his
pleas were coerced were all addressed on direct appeal and are barred from further
consideration by res judicata.” ECF No. 34-20 at 4. As for Draper’s claim of DNA
exoneration, the OCCA noted that his “convictions for the charged sexual offenses were
based upon his conjoint criminal liability, and his participation in aiding and abetting his
co-defendants in committing the charged crimes.” Id. at 4-5.
C
On December 10, 2018, Draper initiated these proceedings by filing a pro se
petition for writ of habeas corpus pursuant to 28 U.S.C. § 2254. Ground One of the
petition alleged a double jeopardy violation arising from Draper being “charged twice for
one act of crime.” ECF No. 1 at 6. Ground Two alleged that Draper was actually
innocent of the sex offenses that he pleaded guilty to. Ground Three alleged that
“[mjultiple violations of due process resulted in convictions and sentences that were
unlawful and void.” Id. at 9. In support of Ground Three, Draper alleged that he “had no
effective counsel,” he was “serving an illegal sentence” because he was “guilty by
6

Appellate Case: 20-6163

Document: 010110475190

Date Filed: 02/04/2021

Page: 7

association,” and the “D.N.A. [was] inconclusive,” meaning that “he “shouldn’t [have]
been charged of sex offenses.” Id. Ground Four alleged that his confession was coerced
and his guilty plea was involuntary.
On April 2, 2019, the magistrate judge issued a report and recommendation
recommending that Draper’s petition be dismissed without prejudice as a mixed petition
containing both exhausted and unexhausted claims.
Draper responded by filing an amended petition. Ground One of the amended
petition alleged a double jeopardy violation arising out of his convictions for burglary in
the first degree and conjoint robbery. ECF No. 18 at 6. Ground Two alleged that Draper
was actually innocent of the rape charges. Ground Three alleged that Draper’s trial
counsel was ineffective for failing to argue that Draper was actually innocent of the rape
charges. Ground Four alleged that Draper’s guilty plea was coerced by his trial counsel
and the state trial court.
The district court ultimately denied all four grounds for relief by way of two
written orders after consideration of supplemental reports and recommendations issued
by the magistrate judge on June 14, 2019, October 16, 2019, and August 13, 2020,
respectively. In the first order, issued on February 24, 2020, the district court concluded
that Grounds Two and Three lacked merit. With respect to Ground Two, the district
court concluded that a claim of actual innocence “cannot, by itself, support the granting
of a writ of habeas corpus.” ECF No. 42 at 5 (citing LaFevers v. Gibson, 238 F.3d 1263,
1265 n.4 (10th Cir. 2001)). With respect to Ground Three, the district court concluded
that the OCCA rejected this claim as procedurally barred and that Draper “fail[ed] to
7

Appellate Case: 20-6163

Document: 010110475190

Date Filed: 02/04/2021

Page: 8

demonstrate cause and actual prejudice or a fundamental miscarriage of justice to
overcome the procedural bar.” Id. In its second order, issued on October 7, 2020, the
district court concluded that Grounds One and Four also lacked merit. With respect to
Ground One, the district court concluded that Draper waived this claim by pleading guilty
to the crimes and that, in any event, the claim lacked merit when considered in light of
Oklahoma law defining the crimes of burglary and conjoint robbery with a firearm. With
respect to Ground Four, the district court concluded that it was “apparent from the record
that [Draper] was not satisfied with the sentence he received, and in hindsight, that is
after sentencing, he challenged the voluntary nature of his decision to plead guilty
because of his dissatisfaction.” ECF No. 65 at 3-4. Further, the district court noted,
Draper’s “answers during the plea colloquy belie[d] his contention that his plea was not
knowingly and voluntarily made.” Id. at 4.
The district court denied Draper a COA and entered final judgment in the case on
October 7, 2020. Draper filed a notice of appeal on October 19, 2020, and has since filed
an application for COA with this court.
II
“A state prisoner whose petition for a writ of habeas corpus is denied by a federal
district court does not enjoy an absolute right to appeal.” Buck v. Davis, 137 S. Ct. 759,
773 (2017). “Federal law requires that he first obtain a COA from a circuit justice or
judge.” Id. (citing 28 U.S.C. § 2253(c)(1)). To obtain a COA, a state prisoner must make
“a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
This requires the prisoner to “sho[w] that reasonable jurists could debate whether (or, for
8

Appellate Case: 20-6163

Document: 010110475190

Date Filed: 02/04/2021

Page: 9

that matter, agree that) the petition should have been resolved in a different manner or
that the issues presented were ‘adequate to deserve encouragement to proceed further.”’
Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (alteration in original) (quoting Slack v.
McDaniel, 529 U.S. 473, 484 (2000)). In other words, the prisoner must show that the
district court’s resolution of the claims was “debatable or wrong.” Slack, 529 U.S. at
484. When a district court dismisses a § 2254 claim on procedural grounds, a petitioner
is entitled to a COA only if he shows both that reasonable jurists would find it debatable
whether he had stated a valid constitutional claim and debatable whether the district
court's procedural ruling was correct. Id. at 484-85.
Draper fails to meet these standards. In his application for COA, Draper simply
repeats the conclusory allegations of error that were contained in his amended habeas
petition, and otherwise makes no effort to establish that the district court’s resolution of
those claims was debatable or wrong. Moreover, we have reviewed the record in this
case, including the pleadings filed by the parties in the district court, the magistrate
judge’s reports and recommendations, and the district court’s orders denying the claims
contained in Draper’s amended petition. Nothing in the record persuades us that
reasonable jurists could debate whether any of the four claims asserted by Draper should
have been resolved in a different manner or are otherwise adequate to deserve
encouragement to proceed further.

9

Appellate Case: 20-6163

Document: 010110475190

Date Filed: 02/04/2021

Page: 10

The application for COA is therefore DENIED and the matter is DISMISSED.
Draper’s motion to proceed in forma pauperis is DENIED.
Entered for the Court
Mary Beck Briscoe
Circuit Judge

10

Case 5:18-cv-01195-R Document 65 Filed 10/07/20 Page 1 of 4

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF OKLAHOMA
JAMES J. DRAPER,
Petitioner,
v.

JIMMY MARTIN
Respondent.

)
)
)
)
)
)
)
)
)

Case No. CIV-18-1195-R

ORDER
Before the Court is the Fourth Supplemental Report and Recommendation (Doc.
No. 60) issued by Magistrate Judge Gary M. Purcell pursuant to a referral under 28 U.S.C.
§ 636(b)(1)(B). Petitioner filed a timely objection to the Report and Recommendation
(Doc. No. 61). The timely objection gives rise to the Court’s obligation to undertake a de
novo review of those portions of the Report and Recommendation to which Petitioner
makes specific objection. See 28 U.S.C. § 636(b)(1)(C). The Court has conducted this de
novo review, granting Petitioner’s filing the liberal construction mandated by Haines v.
Kerner, 404 U.S. 519 (1972), and Court finds as follows.
As a result of the Court’s prior Orders, there remain for consideration two grounds
for relief from the Amended Petition. In Ground One, Petitioner argues that his conviction
on both Count 1, Burglary in the First Degree, and Count 2, Conjoint Robbery with a
Firearm, violated the prohibition against double jeopardy. Petitioner’s final contention,
Ground Four of the Petition, seeks relief on the basis that his guilty plea was coerced by
his trial counsel. Judge Purcell concluded that these claims are subject to de novo review,
1

Case 5:18-cv-01195-R Document 65 Filed 10/07/20 Page 2 of 4

because the Oklahoma Court of Criminal Appeals did not reach of merits of the claims,
erroneously stating that the issues had been addressed on direct appeal. See Cone v. Bell,
556 U.S. 449, 466 (2009)(“W]hen a state court declines to review the merits of a
petitioner's claim on the ground that it has done so already, it creates no bar to federal
habeas review.”). He concluded that Petitioner was not entitled to habeas relief on either
ground, which will be addressed in turn.
With regard to the double jeopardy claim, the Report and Recommendation makes
alternative findings—first that the claim was waived—and second that the claim lacked
merit when considered de novo in light of Oklahoma law defining the crimes of burglary
and conjoint robbery with a firearm. The objection to the Report and Recommendation
makes only fleeting reference to Petitioner’s declaratory judgment claim. He asserts “The
U.S.C. court has made contradicting statements on the report and recommendation
regarding the Petitioner’s involuntary plea deal as well as the Petitioner’s double jeopardy
claim as well (sic).” (Doc. No. 61, p. 1). The only other reference to double jeopardy is
with regard to the alleged ineffective assistance of counsel, a claim not before the Court at
this juncture. (Doc. No. 61, p. 2 )(“The Trial counsel was supposed to bring up the fact that
the case in question would be double Jeopardy”). Objections to a report and
recommendation must be timely and specific in order to preserve an issue for de novo
review. United States v. One Parcel ofReal Property, 73 F.3d 1057, 1060 (10th Cir. 1996).
The above references are wholly insufficient to challenge the findings set forth in the
1 Although the Court grants liberal construction to Petitioner’s objection, it will not craft arguments on his behalf. To
the extent the objection is not sufficiently specific or confined to the two claims addressed in the Fourth Supplemental
Report and Recommendation, the objection has been disregarded.

2

Case 5:18-cv-01195-R Document 65 Filed 10/07/20 Page 3 of 4

Report and Recommendation, and because the objection is too general, failure to
sufficiently address the issue constitutes a waiver. See id. Accordingly, the Report and
Recommendation is ADOPTED with regard to Ground One of the Amended Petition.
In his final ground for relief Petitioner challenged his guilty plea to the fifteen counts
as coerced—that is, involuntary—in violation of his rights under the Fourteenth
Amendment. In the Report and Recommendation, Judge Purcell recommends that relief be
denied on this claim, having reviewed the form entitled “Plea of Guilty and Summary of
Facts” and the transcript from the change of plea hearing. Judge Purcell also reviewed the
transcript from a hearing held on November 12, 2010, addressing Petitioner’s motion to
withdraw his guilty plea.
Petitioner’s objection to this finding is slightly more specific than his arguments
directed to Ground One. Mr. Draper argues, “[t]he petitioner’s transcript show[s] that the
petition did not want plea deal.” (Doc. No. 61, p 1). He further argues, “[wjhen the Trial
Counsel stated that Petitioner would be hammered if he went to trial, this rendered the plea
deal involuntary. Proving that Petitioner took plea deal under duress Coercion.” {Id at p.
3). Judge Purcell addressed and rejected Petitioner’s contention that his counsel’s
prediction that going to trial would likely result in a hefty sentence did not render the plea
involuntary.2 Additionally, Petitioner’s contention that he did not want the plea deal is not
supported by the record in the case. It is apparent from the record that Petitioner was not
satisfied with the sentence he received, and in hindsight, that is after sentencing, he

2 Four of the counts carried the potential for a life sentence.

3

Case 5:18-cv-01195-R Document 65 Filed 10/07/20 Page 4 of 4

challenged the voluntary nature of his decision to plead guilty because of his
dissatisfaction. His answers during the plea colloquy belie his contention that his plea was
not knowingly and voluntarily made, and the Court hereby ADOPTS the Report and
Recommendation as to this ground of the Petition.
For the reasons set forth herein, the Court hereby ADOPTS the Fourth Supplemental
Report and Recommendation. In accordance with this Order and the Court’s prior Orders
in this case, judgment shall be entered in favor of the Respondent and the Petition is
DENIED. Finally, when a court issues a final order adverse to a Petitioner under 28 U.S.C.
§ 2254, it must issue or deny a certificate of appealability. See Rule 11 of the Rules
Governing Section 2254 Cases. A court may issue a certificate of appealability “only if the
applicant has made a substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2). Under this standard, the movant must show that “reasonable jurists could
debate whether...the petition should have been resolved in a different manner or that the
issues presented were adequate to deserve encouragement to proceed further.” Slack v.
McDaniel, 529 U.S. 473,483-84 (2000) (internal quotation marks omitted). For the reasons
discussed above and in the Court’s prior orders, the Court finds that Petitioner has shown
neither and thus denies a certificate of appealability.
IT IS SO ORDERED this 7th day of October 2020.

DAVID L. RUSSELL
UNITED STATES DISTRICT JUDGE

4

Case 5:18-cv-01195-R Document 9 Filed 01/03/19 Page 1 of 1

IN THE'UNITED'STATES'DISTRICT COURT FOR THE
WESTERN DISTRICT OF OKLAHOMA
JAMARJ. DRAPER,
Petitioner,
vs.

STATE OF OKLAHOMA,
Respondent.

)
)
)
)
)
)
)
)
)

No. CIV-18-1195-R

ORDER
This matter is before the Court on the Report and Recommendation entered by
Magistrate Judge Gary M. Purcell on December 11, 2018. Doc. No. 7. Judge Purcell
recommended that Petitioner’s motion for leave to proceed in forma pauperis be denied
and Petitioner ordered to pay the full filing fee of $5.00 by January 2, 2019. On January
2, 2019, the Court received Petitioner’s filing fee. Therefore, the undersigned ADOPTS
the Report and Recommendation, denies the Motion for Leave to Proceed in Forma
Pauperis as moot, and re-refers this matter to Magistrate Judge Gary M. Purcell for further
proceedings consistent with the original referral entered herein.
IT IS SO ORDERED this 3rd day of January 2019.

DAVID L. RUSSELL
UNITED STATES DISTRICT JUDGE

Case 5:18-cv-01195-R Document 7 Filed 12/11/18 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF OKLAHOMA

JAMARJ. DRAPER,

)
)

Petitioner,

)
)

v.

No. CIV-18-1195-R

)
)

STATE OF OKLAHOMA,

)
)

Respondent.

)

REPORT AND RECOMMENDATION
With his Petition for a Writ of Habeas Corpus pursuant to 28 U.S.C. §2254
Petitioner has filed a motion for leave to proceed in forma pauperis (Doc. #2) and
supporting documents.

Having reviewed said motion, the undersigned finds that

Petitioner has sufficient financial resources to pay the $5.00 filing fee. Because he does
not qualify for authorization to proceed without prepayment of the filing fee, Petitioner’s
motion should be denied, and he should be required to pay the full filing fee for this action
to proceed.

RECOMMENDATION
Based on the foregoing findings, it is recommended that the motion for leave to
proceed in forma

pauperis

(Doc. #2)

1

be

DENIED

and

the

action

be

Case 5:18-cv-01195-R Document 7 Filed 12/11/18 Page 2 of 2

dismissed without prejudice unless Petitioner pays the full filing fee to the Clerk of the
Court bv

January 2nd . 2019. Petitioner is advised of his right to file an objection to

this Report and Recommendation with the Clerk of this Court by

January 2nd. 2019,

in accordance with 28 U.S.C. § 636 and LCvR 72.1. The failure to timely object to this
Report and Recommendation would waive appellate review of the recommended ruling.
Moore v. United States of America. 950 F.2d 656 (10th Cir. 1991j; cf. Marshall v. Chater.
75 F.3d 1421, 1426 (10th Cir. 1996) (“Issues raised for the first time in objections to the
magistrate judge’s recommendation are deemed waived.”).
This Report and Recommendation disposes of all issues referred to the undersigned
Magistrate Judge in the captioned matter.
ENTERED this

11th

day of

December. 2018.

GARY IVLJURCELL
UNITED STATES MAGISTRATE JUD

2

A

/

Case 5:18-cv-01195-R Document 29 Filed 06/14/19 Page 1 of 11
■v -

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF OKLAHOMA

JAMARJ. DRAPER,

)
)

Petitioner,

)
)
)

v.

CIV-18-1195-R

)

JIMMY MARTIN, Warden,

)
)

Respondent.

)

SECOND SUPPLEMENTAL REPORT AND RECOMMENDATION
Petitioner, a state prisoner appearing pro se, brings this habeas action under
28 U.S.C. § 2254 challenging his state conviction. The matter has been re-referred
to the undersigned Magistrate Judge for proceedings consistent with 28 U.S.C.
§636(b)(1)(B). For the following reasons, it is recommended that Respondent’s
Motion to Dismiss be denied.
I.

Background
Petitioner filed his original Petition for Writ of Habeas Corpus in this case on

December 10, 2018. Doc. No. 1. Rather than respond to the merits of the Petition,
Respondent filed a Motion to Dismiss for Failure to Exhaust State Court Remedies,
Doc. No. 12, and a Brief in Support of the Motion to Dismiss. Doc. No. 13. In a
Report and Recommendation, the undersigned recommended Respondent’s Motion

l

B

Case 5:18-cv-01195-R Document 29 Filed 06/14/19 Page 2 of 11

to Dismiss be granted and the case dismissed without"prejudice because Petitioner
had filed a “mixed petition” with both exhausted and non-exhausted claims. Doc.
No. 17. The undersigned further recommended that Petitioner be allowed to amend
his Petition to omit any non-exhausted claims. Id. at 12.
While the Report and Recommendation was pending before District Judge
David L. Russell, Petitioner filed an Amended Petition. Doc. No. 18. Judge Russell
adopted the Report and Recommendation and accepted Petitioner’s Amended
Petition.

Doc. No. 20.

Upon receiving the order re-referring the case, the

undersigned ordered Respondent to respond to the Petition. Doc. No. 22.
Rather than respond to the merits of the Amended Petition, Respondent filed
a second Motion to Dismiss for Failure to Exhaust State Remedies, Doc. No. 23, and
a Brief in Support of the Motion to Dismiss. Doc. No. 24. Petitioner has responded
to the Motion. Doc. No. 26.
Petitioner challenges his convictions pursuant to a negotiated guilty plea to
fifteen felony charges: Burglary in the First Degree (Count 1), in violation of Okla.
Stat. tit. 21, § 1431; Conjoint Robbery with a Firearm (Count 2), in violation of Okla.
Stat. tit. 21, § 801; Assault with a Dangerous Weapon While Masked (Count 3), in
violation of Okla. Stat. tit. 21, § 1303; Rape in the First Degree (Counts 4, 7, 13, and
14), in violation of Okla. Stat. tit. 21, § 1111; Forcible Sodomy (Counts 5, 6 and 8),
in violation of Okla. Stat. tit. 21, § 888; Possession of a Firearm During the

; ^

Case 5:18-cv-01195-R Document 29 Filed 06/14/19 Page 3 of 11

Commission of a Felony (Count 9), in violation of Okla. Stat. tit. 21, § 1287;
Conspiracy (Count 10), in violation of Okla. Stat. tit. 21, § 421; Sexual Battery
(Counts 11 and 12), in violation of Okla. Stat. tit. 21, § 1123(B); and Kidnapping
(Count 15), in violation of Okla. Stat. tit. 21, § 741.
The Honorable Donald L. Worthington, Logan County District Judge,
accepted Petitioner s guilty plea and sentenced him in accordance with his
negotiated plea agreement to twenty-five years’ imprisonment on each of Counts 1,
4, 7, 13 and 14, with all but the first fifteen years suspended; twenty years’
imprisonment on Counts 5, 6 and 8 with all but the first fifteen years suspended; ten
years imprisonment on Counts 9, 10, and 15; and five years’ imprisonment on
Counts 3, 11 and 12.

Sentences on all counts were ordered to be served

concurrently.1
A. Petitioner’s Direct Appeal
The trial court denied Petitioner’s timely-filed motion to withdraw his guilty
plea. Petitioner then filed his first Application for Post-Conviction Relief, seeking
an appeal out-of-time. The Oklahoma Court of Criminal Appeals (OCCA) granted
his application, and Petitioner, represented by new counsel, raised the following
claims on direct appeal:

See Case No. Case CF-2009-100, Logan County District Court. The docket sheet may be
viewed at https://wvnv.oscn.net. Last accessed June 14, 2019.

3

Case 5:18-cv-01195-R Document 29 Filed 06/14/19 Page 4 of 11

1. Petitioner’s guilty plea was based on an insufficient factual basis in that he
did not rape anyone, did not aid and abet in the rape, and he was found
guilty by association. Doc. No. 13-3 at 13-18.
2.. Petitioner s plea was unknowingly and involuntarily made because
Petitioner did not understand the theory of conjoint criminal liability, he
had no input into the statement of the factual basis he read in the trial court,
and his attorney coerced him into pleading guilty by telling him he would
get “hammered” by a jury; Id. at 19-22
3. Petitioner’s convictions for multiple felony counts of Conjoint Robbery
with a Firearm, Assault with a dangerous Weapon while Masked and
Possession of a Firearm During the Commission of a Felony are
convictions for the same act; id. at 24-25; and Petitioner’s convictions for
rape, sodomy and kidnapping, id.al 26-27, are also convictions for the
same act.
4. Petitioner did not receive effective assistance of counsel in that counsel did
not raise the issue of double punishment, incorrectly advised him of his
possible liability regarding conjoint liability and repeatedly advised that if
he proceeded to trial he would “get hammered.” Id. at 28-29.
The OCCA denied Petitioner’s appeal on August 12, 2016. Doc. No. 13-4.
B. Petitioner’s First Federal Habeas Action
On October 25, 2016, Petitioner filed his first case in this Court seeking
habeas relief. See Draper v. Farris, CIV 16-1231-R, Doc. No. 1 (filed Oct. 25,
2016). Respondent moved to dismiss the case as a mixed petition containing both
exhausted and non-exhausted grounds for relief. United States Magistrate Judge
Bernard Jones, to whom the case had been referred for initial proceedings,
recommended respondent s motion be granted. See Report and Recommendation.

Case 5:18-cv-01195-R Document 29 Filed 06/14/19 Page 5 of 11

CIV 16-1231-R, Doc. No. 17. Judge Jones found Petitioner had exhausted state
court remedies as to the following grounds for relief:
1. that Petitioner’s convictions on multiple counts of rape and forcible
sodomy violated the Double Jeopardy Clause; and
2. that Petitioner had been found guilty by association for crimes he did not
actually commit.
Conversely, Judge Jones found Petitioner had not exhausted state court
remedies with respect to his other grounds for habeas relief:
Grounds Three, Five, Seven, Eleven, Twelve, and Thirteen are wholly
unexhausted. Ground One is unexhausted in so far as it brings a double­
jeopardy and double-punishment claim related to Petitioner’s firstdegree burglary and conjoint-robbery-with-a-firearm convictions.
Ground Nine is unexhausted with regard to his claim regarding DNA
evidence (which the Court construes as an actual innocence claim).
Doc. No. 13-1 at 9.
United States District Judge David Russell adopted the Report and
Recommendation in Case No. CIV16-1231-R, Doc. No. 19, and allowed Petitioner
to file an amended petition.
Petitioner filed an amended petition, but he again raised an unexhausted
ground for relief, and respondent moved to dismiss the amended petition on that
basis. Judge Jones agreed and recommended dismissal, finding Petitioner had not
presented to the state courts his ground for relief that the trial court had coerced
Petitioner to plead guilty. Doc. No. 24-2 at 4-5. Judge Russell adopted the Report
and Recommendation and dismissed the amended petition without prejudice.
5

Case 5:18-cv-01195-R Document 29 Filed 06/14/19 Page 6 of 11

C. Petitioner’s Final Application for Post-Conviction Relief
While Petitioner’s amended petition was pending before this Court in Case
No. CIV-16-1231-R, Petitioner filed another application for post-conviction relief in
the trial court attempting to exhaust more grounds for relief.

A copy of this

application for post-conviction relief is attached to Respondent’s Brief in Support of
Motion to Dismiss. Doc. No. 24-5. On appeal, the OCCA affirmed the trial court’s
denial of post-conviction relief on the following claims:
1. Petitioner’s right to be free of double jeopardy and double punishment was
violated as he was convicted of Burglary in the First Degree and Conjoint
Robbery with a firearm;
2. Petitioner was actually innocent of the charges of rape and the subsequent
convictions based on inconclusive DNA evidence;
3. Petitioner was deprived of effective assistance of counsel because counsel
did not argue Petitioner was actually innocent of the convictions for rape
based on the DNA evidence; and
4. Petitioner s guilty plea was coerced by the trial court as demonstrated by
’ the type-written statement that Petitioner read, but did not write.
Doc. Nos. 24-5; 24-8.
D.

Petitioner’s Amended Complaint Case No. 18-1195-R

Petitioner raises the following grounds for relief in his Amended Petition:
Ground One: Double Jeopardy. Petitioner’s right to be free of double
jeopardy was violated as he was convicted of Burglary in the First
Degree and Conjoint Robbery.

6

Case 5:18-cv-01195-R Document 29 Filed 06/14/19 Page 7 of 11

Ground Two: Actual Innocence. Petitioner was actually innocent of
the charges of Rape and the subsequent conviction based on
inconclusive DNA evidence.
Ground Three: Ineffective Assistance of Counsel. Petitioner was
deprived of effective counsel because counsel did not argue Petitioner
was actually innocent of the conviction for rape based on the DNA
evidence.
Ground Four: Coerced Plea Deal. Petitioner’s guilty plea was coerced
by trial counsel (Court) as demonstrated by the type-written statement
made by trial court that Petitioner read, but did not write himself.
Doc. No. 18 at 5-9.
II.

Exhaustion Requirement
The United States Supreme Court “has long held that a state prisoner’s federal

habeas petition should be dismissed if the prisoner has not exhausted available state
remedies as to any of his federal claims.” Coleman v. Thompson, 501 U.S. 722, 731
(1991) (citations omitted). But the Supreme Court has declined to “decide where to
draw the line between new claims and claims adjudicated on the merits.” Cullen v.
Pinholster, 563 U.S. 170, 186 n. 10 (2011).
The exhaustion requirement is based on the doctrine of comity. Rose v. Lundy,
455 U.S. 509, 518-19 (1982). Its purpose is “to minimize friction between our
federal and state systems of justice by allowing the State an initial opportunity to
pass upon and correct alleged violations of prisoners’ federal rights.” Duckworth v.
Serrano, 454 U.S. 1, 3 (1981) (citations omitted).

7

Case 5:18-cv-01195-R Document 29 Filed 06/14/19 Page 8 of 11

To exhaust a claim, a petitioner must have “fairly presented” the claim to the
state’s highest court. See Picard v. Conner, 404 U.S. 270, 275-76 (1971). A
petitioner “must give the state courts one full opportunity to resolve any
constitutional issues by invoking one complete round of the State’s established
appellate review process.” O'Sullivan v. Boerckel, 526 U.S. 838, 845 (1999). To
satisfy the exhaustion requirement, a prisoner must afford the state court the
“opportunity to apply controlling legal principles to the facts bearing upon (his)
constitutional claim,” Picard, 404 U.S. at 277 (internal quotation marks and citation
omitted). “A document filed pro se is to be liberally construed, and a pro se
complaint, however inartfully pleaded, must be held to less stringent standards than
formal pleadings drafted by lawyers.” (internal quotation marks omitted). Erickson
v. Pardus, 551 U.S. 89, 94 (2007).

m.

Analysis
Respondent agrees Petitioner’s first and second grounds for relief have now

been exhausted through his applications for post-conviction relief. Doc. No. 24 at
9. Respondent contends, however, that Petitioner has not exhausted his state court
remedies with respect to his third and fourth grounds for relief. The undersigned
disagrees.
In Ground Three, Petitioner claims he was deprived of effective assistance of
counsel “because counsel did not argue Petitioner was actually innocent of the

8

Case 5:18-cv-01195-R Document 29 Filed 06/14/19 Page 9 of 11

conviction for rape based on the DNA evidence.” Doc. No. 18 at 8. According to
Respondent, Petitioner has never raised an ineffective assistance of counsel claim
based on the failure of either his trial attorney or his appellate attorney to argue he
was actually innocent of the rape charge based on the lack of DNA evidence. Doc.
No. 24 at 9.
In his final application for post-conviction relief, Petitioner raised the same
issue now before this Court. On post-conviction appeal of the denial of Petitioner’s
final application for post-conviction relief, the Oklahoma Court of Criminal Appeals
(“OCCA”) stated:
In an order entered April 23, 2018, filed April 24, 2018, The District
Court of Logan County, the Honorable Phillip C. Corley, District
Judge, denied Draper’s request for relief. Judge Corley noted that
Draper’s claims of ineffective assistance of trial counsel were made on
direct appeal and in prior post-conviction applications, and those claims
were addressed and denied, barring them from further consideration.
Doc. No. 24-8 at 3. The OCCA’s Order contradicts Respondent’s contention that
Petitioner’s third ground for relief was not exhausted. Thus, it is recommended
that this Court allow Petitioner’s third ground for relief to proceed.
In Ground Four, Petitioner claims his guilty plea was coerced, as
demonstrated by the fact that the typewritten statement he read before the trial court
was not written by him. Doc. No. 18 at 9. Respondent contends Petitioner has never
raised this exact ground for relief before the state courts. Doc. No. 24 at 11-12.

9

Case 5:18-cv-01195-R Document 29 Filed 06/14/19 Page 10 of 11

In his most recent application for post-conviction relief, however, Petitioner
provided the following facts to support his claim that his guilty plea was coerced:
Confession was a type-written statement from the trial court, not from
Petitioner. Trial court coerced the confession in order to allow the
involuntary plea deal.
Doc. No. 24-5 at 6. The state district court denied relief on this claim and others
based on the doctrine of res judicata, and the OCCA affirmed on the same basis.
Thus, Petitioner raised this ground for relief before the state courts, exhausting his
state court remedies. It is therefore recommended that Petitioner be allowed to
proceed with his fourth ground for relief. Because Petitioner has exhausted his state
court remedies as to all claims, Respondent’s Motion to Dismiss for Failure to
Exhaust should be denied, and the Respondent be ordered to respond to the Petition
(Doc. No. 18).
RECOMMENDATION
Based on the foregoing findings, it is recommended that Respondent’s Motion
to Dismiss be DENIED. The parties are advised of their right to file an objection to
this Second Supplemental Report and Recommendation with the Clerk of this Court
by

July 5th, 2019, in accordance with 28 U.S.C. § 636 and Fed. R. Civ. P. 72. The

failure to timely object to this Second Supplemental Report and Recommendation
results in waiver of appellate review of the recommended ruling. Moore v. United
States, 950 F.2d 656 (10th Cir. 1991); cf. Marshall v. Chater, 75 F.3d 1421, 1426

10

Case 5:18-cv-01195-R Document 29 Filed 06/14/19 Page 11 of 11

(10th Cir. 1996) (“Issues raised for the first time in objections to the magistrate
judge’s recommendation are deemed waived”).
This Second Supplemental Report and Recommendation disposes of all issues
referred to the undersigned Magistrate Judge in the captioned matter, and any
pending motions not specifically addressed herein are denied.
ENTERED this 14th

day of

June, 2019.

JRCELL
GARY
UNTTED^TATES MAGISTRATE JUD^

11

j\ pptw\e\i* A
Appellate Case: 20-6163

Document: 010110475190

Date Filed: 02/04/2021

Page; 1
filed

STATES COURT OF APPEALS

If***

FOR the tenth CIRCUIT
JAMAH J. DRAPER,

February 4, 2021
Christopher M. Wolpert
Clerk of Court

Petitioner - Appellant.
v.
No. 20-6163
(D.C. No. 5: 18-CV-01195-R)
(W.D. Okla.)

JIMMY MARTIN,
Respondent - Appellee.

ORDER DENYING CER
Before BRISCOE. BALDOCK,

Petitioner Jamar D

tificate

OF APPEALABILITY*

and CARSON. Circuit Jud ges.

raper, an Oklahoma state prisoner
appearing pro se, requests a
certificate of appealability (COA)
so that he
may appeal the district court’s
order denying
his petition for writ of habeas
corpus pursuant to 28 U.S.C
§ 2254. Because Draper has
failed to make a substantial showing of the denial
of a constitutional right,
we deny his
request for a COA and dismiss th
e matter.

Appellate Case: 20-6163

Document: 010110475190

Date Filed: 02/04/2021

Page: 2

I
A
In the early morning hours of May 1,
Douglas Hendrix and Corey Moreland,

2009, Draper and two other individuals,

went to a home in Langston, Oklahoma, where

Claude Sandies and Marcus Whitfield lived.
Cotton, the mother of Draper’s children, for

Sandies allegedly owed $100 to LaD onna
a cell phone that Cotton gave to Sandies.

Draper, Hendrix, and Moreland disguised themselves
their faces (the record indicates that two of the men

with ski masks or pantyhose over

wore ski masks and the third used

pantyhose; the record does not identify whether Draper wore a ski mask
pantyhose). The three men (hereinafter the th ree

or the

assailants) were each armed with a

firearm.
At approximately 1:30 a.m., the three assailants kicked in the front door

and

entered the home. Between 1:30 a.m. and 4:00 a.m.,
the three assailants held Sandies,
Whitfield, and their two female companions, L.B.
During that time, the three assailants bound

and T.N., against their will at gunpoint.

and severely beat Sandies and Whitfield.

The three assailants also repeatedly raped and sodomized L.B
• and T.N. During the
course of the siege, the three assailants also searched the home fo
r money and valuable
items, and robbed Sandies, Whitfield
and L.B. of personal items. The three assailants
also told the four victims that only two of them

would survive the night. The siege

ultimately ended when either Draper or Moreland

accidentally shot Hendrix. That

prompted the three assailants to leave the house and allowed the four victims to
escape
and call the police.
2

Appellate Case: 20-6163

Document: 010110475190

Date Filed: 02/04/2021

Page: 3

B
On May 2, 2009, Draper was taken into custody and admitted, i
-> m part, to his role
in the offenses. Draper was subsequently charged in the District Court of Logan County,
Oklahoma, with multiple offenses.
On October 4, 2010, Draper pleaded guilty to
one count of burglary in the first
degree, one count of conjoint robbery with a firearm,
one count of assault with a
dangerous weapon while masked, four counts of first degree
rape, three counts of forcible
sodomy, one count of possession of a firearm duri
ng commission of a felony, one count
of conspiracy, two counts of sexual batte
ry, and one count of kidnapping.
The state trial court sentenced Draper to: (1) twenty-five years’ i
’ imprisonment,
with all but the first fift
een years suspended, on the burglary, robbery, and rape
convictions; (2) twenty years’ i
imprisonment, with all but the first fifteen y
suspended, on the forcible sodomy convictions; (3) te
possession of a firearm, kidnapping, and one of the
years’ imprisonment on the assault with a dang

ears

n years ’ imprisonment on the

conspiracy convictions; and (4) five

erous weapon and remaining two

conspiracy convictions. The state trial court ordered all of the

sentences to run

concurrently.
On October 14, 2010, Draper moved to withdraw his guilty plea.
denied by the state trial

That motion was

court on November 12, 2010, after a hearing.

Draper did not file a direct appeal. On August 31
, 2012, Draper filed a pro se
application for state post-conviction relief alleging that his trial
counsel was ineffective
and that he was coerced into pieading g„U*. The state ^ ^ ^
3

Appellate Case: 20-6163

Document: 010110475190

.by. vvri tten order on -No vem ber 16

Date Filed: 02/04/2021

Page: 4

,"20127 In doing so, the state trial

court found that
Draper entered his pleas of guilty knowingly and voluntarilyi and ^ ^
er was not
coerced iinto entering his guilty pi
eas. The state trial court also concluded that D
raper’s
trial counsel was not ineffective.
Draper appealed to the Oklahoma Court

of Criminal Appeals (OCCA). In that pro

se appeal. Draper raised the following issues, several of which
were not included in his
original application for stat

post-conviction relief: (1) the state trial court abused its

discretion by denying Draper’s motion to wi
withdraw his guilty plea; (2) Draper’s Double
Jeopardy rights were violated when he
was convicted of and sentenced for two crimes,
first degree burglary and conjoint armed
robbery, that covered the
same criminal conduct;
(3) his trial counsel was ineffective and coerced him i
into pleading guilty by telling hilm
that he would receive four life
sentences if he went to trial; (4) his sentences were
excessive because he was only an accessory to many of the

crimes; (5) he was charged

with sex offenses that h e did not personally commit; (6) prosecutorial misconduct
O) “[gjuilt [bjy [association.”
the appeal on the grounds that it
or before December 16, 2012,

; and
ECF No. 34-5 at 6. The OCCA declined jurisdiction
was untimely (i.e., that it “should have been filed

but was not filed until Januaiy 9,

over
. on

2013”). ECF No. 34-6 at

1.

In April 2013, Draper filed a second applicat
ion for state post-conviction relief
with the state trial court. In that a
pplication, Draper argued that (I) he was denied the
nght to withdraw his guilty plea. (2) his trial counsel
was ineffective and misled him into
Pleading guilty, and (3) the state trial

court abused its discretion by refusing to alljw him
4

Appellate Case: 20-6163

Document: 010110475190

to withdraw his guilty plea. On Januaiy 17

Date Filed: 02/04/2021

Page:5

,2014, the state trial court denied Draper’s

second application as procedurally barred.
On February 2, 2014, Draper filed with the state trial
court a third application for
state post-conviction relief and a motion for

appeal out of time. On June 18, 2015, the

state trial court granted Draper’s application and reco,untended that he be all
an appeal out of time with the OGCA. On August 6

owed to file

,2015, the OCCA granted Draper’s

request for a certiorari appeal out of time.
On January 26, 2016, Draper, through appointed counsel,
filed a petition for writ
of certiorari with the OCCA. Draper asserted four propositions of error

in his petition:

(1) that there was an insufficient factual basis for his guilty plea; (2) h
is guilty plea was
not knowingly and voluntarily made; (3) his convictions for conjoint robbety with a
firearm, assault with a dangerous

weapon, and possession of a firearm duri
ring commission
f

miciu, ana (4; nis trial counsel

was ineffective in several respects in
encouraging him to enter a plea of guilty. On
August 12, 2016, the OCCA issued

a summary opinion denying Draper’s petition and

affirming the judgment and sentence of the state trial

court.

On June 26, 2017, Draper filed with the state trial c
ourt a fourth pro se application
for state post-conviction relief arguing that: (1) his
convictions for rape, forcible sodomy,
burglary in the first degree, and conjoint robbeiy
against double punishment for the

with a firearm violated the prohibition

same criminal conduct; (2) he was actually innocent of

the sex offenses; (3) his due process rights
were violated because his trial counsel was
ineffective and because the DNA evidence related to the
sex offenses was inconclusive;
5

Appellate Case: 20-6163

Document: 010110475190

and (4) the state trial court coerced his confession.

Date Filed: 02/04/2021

Page: 6

The state trial court denied the

application, concluding that (1) the doctrine ofres judicata bamed claims that were raised
or could have been raised iin Draper’s direct appeal, and (2) Draper provided

no

substantive evidence to support his claim of actual i
innocence.
On June 22, 2018, Draper filed a pro se
petition in error with the OCCA. On
September 24, 2018, the OCCA issued a written order affirming th
denial of post-conviction relief. The OCCA noted that “

e state trial court’s

Draper’s claims of double

jeopardy, that he was convicted of crimes that he did not actually

commit, and that his

pleas were coerced were ail addressed on direct appeal and are barred from further
consideration by res judicata.” ECF No. 34-20 at 4.

As for Draper’s claim of DNA

exoneration, the OCCA noted that his “

convictions for the charged sexual offenses were
based upon his conjoint criminal liability,
and his participation in aiding and abetting his
co-defendants in committing the charged crimes.” Id. at 4-5.
C
On December 10, 2018, Draper initiated these proceedings by fili
petition for writ of habeas

ng a pro se

corpus pursuant to 28 U.S.C, § 2254. Ground One of the

petition alleged a double jeopardy violation arising from Draper

being “charged twice for

one act of crime.” ECF No. 1 at 6. Ground Two alleged that Draper was actually
innocent of the sex offenses that he pleaded guilty to. Ground Three alleged that
[mjultiple violations of due process resulted in

convictions and sentences that were

unlawful and void.” Id. at 9. In support of Ground Three, Draper alleged that he “had no
effective counsel,” he was “

serving an illegal sentence” because he was"“guilty by
6

Appellate Case: 20-6163

Document: 010110475190

association,” and the “D.N.A. [was] inconclusive,”

Date Filed: 02/04/2021

Page: 7

meaning that “he “shouldn’t [have]

been charged of sex offenses.” Id. Ground Four alleged that his confession

was coerced

and his guilty plea was involuntary.
On April 2, 2019, the magistrate judge issued a report and

recommendation

recommending that Draper’s petition be dismissed without prejudice

as a mixed petition

containing both exhausted and unexhausted claims.
Draper responded by filing an amended petition. Ground One of the amended
petition alleged a double jeopardy violation arising out of his convictions for burgl
ary in
the first degree and conjoint robbety. ECF No. 18 at 6. Ground Two alleged that D
raper
was actually innocent of the rape charges. Ground Three alleged that Drap
er’s trial
counsel was ineffective for failing to argue that Draper was actually innocent of the
rape.
charges. Ground Four alleged that Draper's guilty plea was coerced by his trial counsel
and the state trial court.
The district court ultimately denied all four grounds for relief by
written orders after consideration of supplemental
by the magistrate judge on June 14, 2019,

way of two

reports and recommendations issued

October 16, 2019, and August 13, 2020,

respectively. In the first order, issued on February 24, 2020, the district court concluded
that Grounds Two and Three lacked

merit. With respect to Ground Two, the district

court concluded that a claim of actual i
- innocence “cannot, by itself, support the granting
of a writ of habeas corpus.” ECF No. 42 at 5 (citing LaFevers

Gibson, 238 F.3d 1263
1265 n.4 (10th Cir. 2001)). With respect to Ground Three, the district
court concluded
that the OCCArejected th'i^liim as
procedurally barred and that Draper “fail[ed] to
7

Appellate Case: 20-6163

Document: 010110475190

Date Fifed: 02/04/2021

Page: 8

demonstrate cause and actual prejudice or a fundamental miscarriage of justice to
overcome the procedural bar.” Id. In its second order, issued

on October 7, 2020, the

district court concluded that Grounds One and Four also lacked
merit. With respect to
Ground One, the district court concluded that Dra
per waived this claim by pleading guilty
to the crimes and that, i
in any event, the claim lacked merit when considered in light of
Oklahoma law defining the crimes of burglary and conjoint robbeiy with a firearm.
respect to Ground Four, the district court concluded that it
that [Draper] was not satisfied with the

With

was “apparent from the record

sentence he received, and in hindsight, that is

after sentencing, he challenged the voluntary nature of his decision to
plead guilty
because of his dissatisfaction.” ECF No. 65 at 3-4. Further, the district

court noted,
Draper's “answers during the plea colloquy belie[d] his contention that his plea was not
knowingly and voluntarily made.” Id. at 4.
The district court denied Drap er a

COA and entered final judgment in the case on

October 7, 2020. Draper filed a notice of appeal on October 19, 2020, and has since filed
an application for COA with this court.
II
“A state prisoner whose petition for a writ of habeas

corpus is denied by a federal
district court does not enjoy an absolute right to appeal.” Buck v. Davis. 137 S. Ct. 759,
773 (2017). “Federal law requires that he first obtain

a COA from a circuit justice or

judge.” ,d. (citing 28 U.S.C. § 2253(c)(1)), To obtain a COA, a state prisoner must make
“a substantial showing of the denial of a constitutional right.”
28 U.S.C. § 2253(c)(2).
This requires the prisoner to “ sho[w] that reasonable jurists could debate whether (or, for
8

Appellate Case: 20-6163

Document: 010110475190

that matter, agree that) the petition should have bee

Date Filed: 02/04/2021

Page: 9

n resolved in a different manne r or

that the issues presented were ‘adequate to deserve
encouragement to proceed further.’”
Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (alteration i
in original) (quoting Slack v.
McDaniel, 529 U.S. 473, 484 (2000)). In other words, the prisoner
must show that the
district court’s resolution of the claims
was “debatable or wrong.” Slack, 529 U.S. at
484. When a district court dismisses

a § 2254 claim on procedural grounds,

is entitled to a COA only if he shows both that

a petitioner

reasonable jurists would find it debatable

whether he had stated a valid constitutional claim and debatable whether the district
court s procedural ruling was correct. Id. at 484-85
Draper fails to meet these standards.

In his application for COA, Draper simply

repeats the conclusory allegations of error that

were contained in his amended habeas

petition, and otherwise makes no effort to establish that the district court

’s resolution of

those claims was debatable or wrong. Moreover, we have reviewed the record i
in this
cas e, including the pleadings filed by the parties in the district court, the magist
rate
judge’s reports and recommendations, and the district
court’s orders denying the claims
contained in Draper’s amended petition. Nothing in the record persuades us that
reasonable jurists could debate whether any of the four claims
asserted by Draper should
have been resolved in a different manner or are otherwise adequate to deserve
encouragement to proceed further.

9

,

APPe,fa{e Case: 20-6163

Document: 010110475190
Date Filed: 02/04/2021

Page: 10

The application for COA is therefore DENIED and the matter i
is DISMISSED.
Draper’s motion to proceed in forma pauperis
is DENIED.
Entered for the Court

Mary Beck Briscoe
Circuit Judge

10

Case 5:18-cv-01195-R Document 38 Filed 10/16/19 Page 1 of 14

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF OKLAHOMA

JAMARJ. DRAPER,

)
)

Petitioner,

)
)

v.

)

CIV-18-1195-R

)

JIMMY MARTIN, Warden,

)
)

Respondent.

)

THIRD SUPPLEMENTAL REPORT AND RECOMMENDATION
Petitioner, a state prisoner appearing pro se, has filed an Amended Petition
for Writ of Habeas Corpus under 28 U.S.C. § 2254 challenging his state conviction.
Doc. No. 18. Respondent has filed a Response, Doc. No. 34, and Petitioner has
replied. Doc. No. 37. The matter has been referred to the undersigned Magistrate
Judge for proceedings consistent with 28 U.S.C. §636(b)(1)(B). For the following
reasons, it is recommended that the Petition for Writ of Habeas Corpus be denied.
I.

Background
Petitioner challenges his convictions pursuant to a negotiated guilty plea to

fifteen felony charges: Burglary in the First Degree (Count 1), in violation of Okla.
Stat. tit. 21, § 1431; Conjoint Robbery with a Firearm (Count 2), in violation of Okla.
Stat. tit. 21, § .801; Assault with a Dangerous Weapon While Masked (Count 3), in

l

Case 5:18-cv-01195-R Document 38 Filed 10/16/19 Page 2 of 14

violation of Okla. Stat. tit. 21, § 1303; Rape in the First Degree (Counts 4, 7, 13, and
14), in violation of Okla. Stat. tit. 21, § 1111; Forcible Sodomy (Counts 5, 6 and 8),
in violation of Okla. Stat. tit. 21, § 888; Possession of a Firearm During the
Commission of a Felony (Count 9), in violation of Okla. Stat. tit. 21, § 1287;
Conspiracy (Count 10), in violation of Okla. Stat. tit. 21, § 421; Sexual Battery
(Counts 11 and 12), in violation of Okla. Stat. tit. 21, § 1123(B); and Kidnapping
(Count 15), in violation of Okla. Stat. tit. 21, § 741.
The Honorable Donald L. Worthington, Logan County District Judge,
accepted Petitioner’s guilty plea and sentenced him in accordance with his
negotiated plea agreement to twenty-five years’ imprisonment on each of Counts 1,
2, 4, 7, 13 and 14, with all but the first fifteen years suspended; twenty years’
imprisonment on Counts 5, 6 and 8 with all but the first fifteen years suspended; ten
years’ imprisonment on Counts 9, 10, and 15; and five years’ imprisonment on
Counts 3,11 and 12. Sentences on all counts were ordered to be served concurrently.
Doc. No. 34-1.
Petitioner filed a timely notice to withdraw his plea, Doc. No. 34-2, which the
trial court denied after a hearing. Petitioner subsequently filed several applications
for post-conviction relief in the trial court. Ultimately, the trial court granted
Petitioner’s Third Application for Post-Conviction Relief, recommending that the
Oklahoma Court of Criminal Appeals (“OCCA”) grant Petitioner an appeal out-of-

2

Case 5:18-cv-01195-R Document 38 Filed 10/16/19 Page 3 of 14

time. Doc. No. 34-12. The OCCA granted certiorari appeal out-of-time, and counsel
was appointed to represent Petitioner. Doc. No. 34-13. The OCCA considered the
following four issues raised by Petitioner through appellate counsel:
1. Whether the factual basis for the plea was insufficient;
2. Whether Petitioner’s plea was knowingly and voluntarily made;
3. Whether convictions for multiple counts violate the prohibition against
double punishment under state law and the Double Jeopardy clause; and
4. Whether Petitioner received effective assistance of trial counsel.
The OCCA considered the merits of Petitioner’s claims and affirmed
Petitioner’s convictions. Doc. No. 34-16. Subsequently, Petitioner exhausted his
state court remedies as to other claims by filing applications for post-conviction
relief that were denied by both the trial court and the OCCA as procedurally
defaulted.
II.

Issues Raised
Petitioner raises the following issues in this habeas action:
1. Ground One: Double Jeopardy. Petitioner’s convictions for
Burglary in the First Degree and Conjoint Robbery constituted
double jeopardy.
2. Ground Two: Actual Innocence. Petitioner was actually innocent
of the charges of Rape and the subsequent conviction based on
inconclusive DNA evidence.
3. Ground Three: Ineffective Assistance of Counsel. Petitioner was
deprived of effective counsel because counsel did not argue

3.

Case 5:18-cv-01195-R Document 38 Filed 10/16/19 Page 4 of 14

Petitioner was actually innocent of the conviction for Rape based on
the DNA evidence.
4. Ground Four: Coerced Plea Deal. Petitioner’s guilty plea was
coerced by “trial counsel (Court)” as demonstrated by the
typewritten statement made by the trial court that Petitioner read,
but did not write himself.
III.

Review of Procedurallv Barred Claims

Respondent contends all of Petitioner’s grounds for habeas relief, as raised in
the instant Petition, are barred from habeas review based on the doctrine of
procedural default. The OCCA applied the doctrine of res judicata to bar all claims
Petitioner raised in applications for post-conviction relief after having asserted those
claims on direct appeal. Under the doctrine of waiver, the OCCA found all claims
raised for the first time in applications for post-conviction relief filed after
disposition of Petitioner’s direct appeal were likewise barred from review.
A. Federal Habeas Review of Procedurally Barred Claims
Federal habeas courts must respect procedural bars applied by state courts, so
long as those bars are based on state procedural laws independent of federal law and
applied even-handedly by the state courts. In other words, the state procedural bar
must be both independent and adequate to apply to claims raised on federal habeas
review. Davila v. Davis,

U.S.

, 137S.C1 2058, 2062 (2017).

As noted above, the OCCA relied on the doctrines of res judicata and waiver
in finding Petitioner’s claims raised in post-conviction applications filed after his

4

Case 5:18-cv-01195-R Document 38 Filed 10/16/19 Page 5 of 14

direct appeal were barred from further review.

It is well-established that the

procedural bars set forth in Oklahoma’s Post Conviction Procedure Act, Okla. Stat.
tit. 22, § 1086, are both independent and adequate procedural bars. See, e.g., Welch
v. Workman, 639 F.3d 980,994 n. 6 (10th Cir. 2010) (“Under Oklahoma law, claims'
previously raised and rejected are barred by res judicata .... Both the res judicata
bar to claims previously rejected in the state courts and the waiver rule for claims
not previously raised ... are included in Okla. Stat. tit. 22, §§ 1086 and 1089,. and
both are regularly and even-handedly applied by the state courts.”) (internal
quotation marks and citation omitted); Ellis v. Hargett, 302 F.3d 1182, 1186 (10th
Cir. 2002) (stating that Okla. Stat. tit. 22, § 1086 “is an independent and adequate
state ground for denying habeas relief’).
B. Overcoming a Procedural Bar in a Federal Habeas Action
Where, as here, all habeas claims raised are barred from federal habeas review
based on an independent and adequate state ground, a petitioner may overcome the
bar only by demonstrating either cause for the default and actual prejudice or by
demonstrating that a fundamental miscarriage of justice will occur if the Court does
not review the defaulted claim. Coleman v. Thompson, 501 U.S. 722, 750 (1991).
See also Davila v. Davis, 137 S. Ct. at 2062 (“A state prisoner may be able to
overcome [a procedural] bar, however, if he can establish ‘cause’ to excuse the

5

Case 5:18-cv-01195-R Document 38 Filed 10/16/19 Page 6 of 14

procedural default and demonstrate that he suffered actual prejudice from the alleged
error”).
“Cause” for a procedural default exists where something external to the
petitioner, something that cannot fairly be attributed to him, impeded his efforts to
comply with the state’s procedural rule. Smith v. Allbaugh, 921 F.3d 1261, 126768 (10th Cir. 2019).
The miscarriage of justice exception to the bar from considering claims
procedurally defaulted in the state courts requires a petitioner to “supplement^ his
constitutional claim with a colorable showing of factual innocence.” Herrera v.
Collins, 506 U.S. 390, 404 (1993) (quotations omitted)).
IV.

Analysis
A. Double Jeopardy—Burglary in the First Degree and Conjoint Robbery
Petitioner alleges his right to be free of double jeopardy was violated because

he was convicted of both Burglary in the First Degree and Conjoint Robbery. Doc.
No. 18 at 5.
On direct appeal, Petitioner’s argument that his convictions for multiple
counts violated the prohibition against double jeopardy did not include the issue he
raises before this Court. See Appellate Brief, Doc. No. 34-14. Rather, Petitioner
challenged his convictions for Conjoint Robbery with a Firearm (Count 2), Assault

6

Case 5:18-cv-01195-R Document 38 Filed 10/16/19 Page 7 of 14

with Dangerous Weapon While Masked (Count 3), and Possession of a Firearm
During Commission of a Felony (Count 9). Id. at 25.
Citing Okla. Stat. tit. 21, § 11(a),1 and the Double Jeopardy Clause, Petitioner
also challenged his convictions and sentences for Sexual Battery, Rape, Sodomy and
Kidnapping, arguing the charging document stated that the kidnapping was “for the
purpose of committing Sexual Battery, Rape and Sodomy” and should not have been
treated as a separate crime. Doc. No. 34-14 at 27.
In its Summary Opinion dated August 12, 2016, the OCCA rejected
Petitioner’s argument, finding that each crime for which he was convicted and
punished was “separate and distinct” from the others and required “dissimilar proof.”
Doc. No. 34-16 at 4-5.
Petitioner first challenged his convictions for Burglary and Conjoint Robbery
on double jeopardy grounds in an Application for Post-Conviction Relief filed on
July 21, 2017. Doc. No. 34-17. The trial court denied his application based on the
doctrine of res judicata, finding that his claims had either been raised, or could have
been raised, on direct appeal. Doc. No. 34-18. On appeal of the denial of post­
conviction relief, the OCCA agreed and barred the double jeopardy claim from
further review. Doc. No. 34-20 at 4.

1 Section 11 states, “an act or omission which is made punishable in different ways by different
provisions of this title may be punished under such provisions,.. -.but in no case can a criminal act
or omission be punished under more than one section of the law[.]”
7

Case 5:18-cv-01195-R Document 38 Filed 10/16/19 Page 8 of 14

In his Reply, Petitioner contends his trial counsel was ineffective in failing to
make an argument to demonstrate Petitioner’s convictions violated the Double
Jeopardy Clause and in failing to argue that Petitioner was “actually innocent ’ of
some of the crimes based on inconclusive DNA evidence found on the rape victims .
Doc. No. 37 at 2.
An attorney’s constitutionally deficient performance constitutes cause when
it is an external factor behind a petitioner’s failure to comply with state procedural
rules. Smith v. Allbaugh, at 1268 (10th Cir. 2019) {citingDavila v. Davis, 137 S. Ct.
at 2065). But a petitioner must show more than deficient performance of his
attorney; he must show constitutionally deficient performance.
An attorney’s performance is constitutionally deficient if a defendant
can show both that the attorney performed deficiently (i.e., “that
counsel’s representation fell below an objective standard of
reasonableness”) and that the deficient performance caused prejudice
(i.e., “there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been
different”).
Smith v. Allbaugh at 1268 (citations omitted). In this case, Petitioner has not
demonstrated his trial counsel was ineffective in failing to raise this double jeopardy
argument in the hearing on Petitioner’s Motion to Withdraw his plea. The hearing
was focused on the voluntariness of Petitioner’s plea, not a belated attempt to raise
claims of legal, as opposed to actual, innocence. Moreover, even if the performance
of Petitioner’s trial attorney fell below an objective standard of reasonableness,

Case 5:18-cv-01195-R Document 38 Filed 10/16/19 Page 9 of 14

Petitioner cannot demonstrate he was prejudiced by the deficient representation
because he was appointed different counsel and granted an appeal-out-of-time where
the addition double jeopardy argument could have been raised.2
The “fundamental miscarriage of justice” exception to the procedural default
rule “is a markedly narrow one, implicated only in extraordinary cases where a
constitutional violation has probably resulted in the conviction of one who is actually
innocent.” Magar v. Parker, 490 F.3d 816, 820 (10th Cir. 2007). See also Herrera
v. Collins, 506 U.S. 390, 404 (1993) (“The fundamental miscarriage of justice
exception is available only where the prisoner supplements his constitutional claim
with a .colorable showing of factual innocence.” (quotations omitted)). “[Ajctual
innocence, if proved, serves as a gateway through which a petitioner may pass
whether the impediment is a procedural bar [or] . . . expiration of the statute of
limitations.” McQuiggin v. Perkins, 569 U.S. 383, 386 (2013). The Court’s opinion
in McQuiggin makes clear the limitations on its holding: “[T]enable actualinnocence gateway pleas are rare: ‘[A] petitioner does not meet the threshold
requirement unless he persuades the district court that, in light of [] new evidence,
no juror, acting reasonably, would have voted to find him guilty beyond a reasonable
doubt.’” Id. (quoting Schlup v. Delo, 513 U.S. 298, 329 (1995)).

2 Petitioner does not contend his appellate counsel’s performance was deficient.
9

Case 5:18-cv-01195-R Document 38 Filed 10/16/19 Page 10 of 14

Petitioner has demonstrated neither cause for the default and actual prejudice,
nor that a fundamental miscarriage ofjustice will occur if the Court does not consider
Petitioner’s defaulted double jeopardy claim.
B.

Actual Innocence

The Supreme Court has never recognized a stand-alone claim of actual
innocence. “[A]n assertion of actual innocence, although operating as a potential
pathway for reaching otherwise defaulted constitutional claims, does not, standing
alone, support the granting of the writ of habeas corpus.” LaFevers v. Gibson, 238
F.3d 1263, 1265 n. 4 (10th Cir. 2001) {citingHerrera v. Collins, 506 U.S. at 400-01
(“Claims of actual innocence based on newly discovered evidence have never been
held to state a ground for federal habeas relief absent an independent constitutional
violation occurring in the underlying state criminal proceeding.”)). Further, “[f]ew
rulings would be more disruptive of our federal system than to provide for federal
habeas review of freestanding claims of actual innocence.” Sellers v. Ward, 135
F.3d 1333, 1338-39 (10th Cir. 1998) (discussing Herrera ). Accordingly, the Court
finds that Petitioner’s stand-alone claim of actual innocence is not cognizable in
these habeas proceedings, and should be denied for that reason.
C.

Ineffective Assistance of Counsel

Petitioner contends he was deprived of effective assistance of counsel because
trial counsel did not argue at the hearing to withdraw his guilty plea that Petitioner

10

Case 5:18-cv-01195-R Document 38 Filed 10/16/19 Page 11 of 14

was actually innocent of the convictions for rape based on inconclusive DNA
evidence. Doc. No. 18 at 8.
On direct appeal, Petitioner contended his trial counselwas ineffective
because there was an inadequate factual basis for his plea, because counsel did not
properly advise him regarding his “mutual and conjoint liability” and because
counsel did not raise a double punishment objection. Doc. No. 34-14 at 23-24.
In Petitioner’s subsequent Application for Post-Conviction Relief, Doc. No.
34-18, Petitioner argued his trial counsel was ineffective because of “multiple
violations of Petitioner’s right to due process” and because counsel did not argue
that Petitioner was actually innocent of some of the charged sex crimes based on
inconclusive DNA results. Doc. No. 34-17 at 5. The trial court denied post­
conviction relief, noting that Petitioner had raised an ineffective assistance of
counsel claim before and had asserted no reason for failing to raise his new
ineffectiveness of counsel argument in his direct appeal. Doc. No. 34-18 at 2. The
OCCA affirmed the denial of post-conviction relief. Doc. No. 34-20 at 3-4.
Petitioner waived review of the new iteration of the ineffective assistance of counsel
claim before the state courts, and that claim is barred from review in this Court.
Petitioner has demonstrated neither cause and prejudice nor his “actual innocence.”
To be credible, a claim of actual innocence requires an applicant “to support his
allegations of constitutional error with new reliable evidence—whether it be

11

Case 5:18-cv-01195-R Document 38 Filed 10/16/19 Page 13 of 14

OCCA stated in its opinion affirming the district court’s denial of post-conviction
relief that:
Draper’s claims of double jeopardy, that he was convicted of crimes
that he did not actually commit, and that his pleas were coerced were
all addressed on direct appeal, and are barred from further consideration
by res judicata.
Doc. No. 34-20 at 4. Regardless, it appears Petitioner did not actually raise the claim
currently under consideration in his direct appeal. If, as this Court finds, Petitioner
raised this claim for the first time in his Application for Post-Conviction Relief filed
after disposition of his direct appeal, his claim would be subject to a procedural bar,
the proper basis of which would be Petitioner’s waiver of the claim. Petitioner does
not attempt to demonstrate cause and prejudice to excuse his procedural default, nor
does he claim a miscarriage of justice would occur if this Court does not consider
this procedurally barred claim.
V.

Conclusion
All of the claims Petitioner raises in his Amended Petition are barred from

habeas review by this Court.

The state courts barred these claims, applying

independent and adequate state procedural rules. Petitioner has failed to overcome
the state procedural bars, as required for merit review of otherwise procedurally
barred habeas claims. Thus, the Amended Petition for Writ of Habeas Corpus should
be denied.

13

Case 5:18-cv-01195-R Document 38 Filed 10/16/19 Page 14 of 14

RF,COMMENDATION
Based on the foregoing findings, it is recommended that Petitioner’s Amended
Petition, Doc. No. 18, be DENIED. The parties are advised of their right to file an
objection to this Third Supplemental Report and Recommendation with the Clerk of
this Court by November 5th
R. Civ. P. 72

, 2019, in accordance with 28 U.S.C. § 636 and Fed.

. The failure to timely object to this Third Supplemental Report and

Recommendation results in waiver of appellate review of the recommended ruling.
Moore v.

United States, 950 F.2d 656 (10th Cir. 1991); cf. Marshall v. Chater, 75

F.3d 1421, 1426 (10th Cir. 1996) (“Issues raised for the first time in objections to
the magistrate judge’s recommendation are deemed waived.”).
This Third Supplemental Report and Recommendation disposes of all issues
referred to the undersigned Magistrate Judge in the captioned matter, and any
pending motions not specifically addressed herein are denied.
ENTERED this 16th

day of October_, 2019.

GARY M/WJRCELL
UNITED STATES MAGISTRATE JUD;

14

f\pl?ehd;i 0
Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 1 of 23
4

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF OKLAHOMA
JAMAR J. DRAPER,
)

Petitioner,

)
)

No. CIV-18-1195-R

)
)

v.

)

JIMMY MARTIN, Warden,

)
)

Respondent.

)

FOURTH SUPPT .KMENTAL REPORT AND RECOMMENDATION
Petitioner, a state prisoner appearing pro se, has filed this Petition for a Writ
of Habeas Corpus pursuant to 28 U.S.C. § 2254. Doc. No. 1 (“Pet.”). Petitioner is
challenging his convictions for multiple crimes in the District Court of Logan
County, Case No. CF-2009-100. Respondent has responded to the Petition and filed
the relevant state court records. The matter has been referred to the undersigned
Magistrate Judge for initial proceedings consistent with 28 U.S.C. § 636(b)(1)(B).
For the following reasons, it is recommended the Petition be denied.
I. Background
In 2009, Petitioner entered a plea of guilty pursuant to a plea deal on the
following charges: Count 1, Burglary in the First Degree; Count 2, Conjoint Robbery
with a Firearm; Count 3, Assault with a Dangerous Weapon While Masked; Counts
4, 7, 13, and 14, Rape - First Degree; Counts 5, 6, and 8, Forcible Sodomy; Count
1

Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 2 of 23

9, Possession of a Firearm During Commission of a Felony; Count 10, Conspiracy;
Counts 11 and 12, Sexual Battery; and Count 15, Kidnapping. Pet. at 1; Doc. No. 47
(“Resp.”) at 1-2; Oklahoma State Courts Network, Logan County District Court,
Case No. CF-2009-100.1 The trial court sentenced Petitioner to twenty-five years
imprisonment with all but the first fifteen years suspended on Counts 1, 2, 4, 7, 13,
and 14, twenty years imprisonment with all but the first fifteen years suspended on
Counts 5, 6, and 8, ten years imprisonment on Counts 9, 10, and 15, and five years
imprisonment on Counts 3, 11, and 12. Resp. at 2; Doc. No. 34-1 at 1-2. The trial
court ordered that the sentences run concurrently. Id.
This case was based on events that occurred in the early morning hours of
May 1, 2009.2 On the night of April 30, 2009 and early morning of May 1, 2009,
roommates Claude Sandies and Marcus Whitfield had their female friends, L.B. and
T.N., over to their home in Langston, Oklahoma to socialize. Doc. No. 47-2 at 2, 3,
29, 54,70-71. At the end of the evening, Mr. Sandies and L.B. went into his bedroom
and Mr. Whitfield and T.N. went into his bedroom. Id. at 3, 70-72.
The mother of Petitioner’s children, LaDonna Cotton, was allegedly owed
$100.00 for a cell phone that she gave to Mr. Sandies. Id. at 87. Petitioner and two

1 See httPs://www.oscn.net/dockets/GetCaseInformation.aspx?db-logan&number=CF-2009-100.
2 In his Response, Respondent set out the facts underlying the case, supported by citations to the
state record of proceedings. Resp. at 6-11. Because those facts are supported by the record and
Petitioner did not dispute the same, the facts herein are taken substantially from the Response.

2

t

Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 3 of 23

co-defendants, Douglas Hendrix and Corey Moreland, went to Mr. Sandies’ home.
Id. at 87-88. Two of the co-defendants wore ski masks and one co-defendant wore
pantyhose over his face.3 Id. at 27-28, 55-56, 68-69. Each co-defendant was armed
with a firearm. Id. at 55-56. At approximately 1:30 a.m., the armed and masked co­
defendants kicked in the front door of Mr. Sandies and Mr. Whitfield’s home. Id. at
67. They then kicked in Mr. Sandies’ bedroom door. Id. at 57. The co-defendants
began yelling and beating Mr. Sandies and asking him where the money was located.
Id. at 4-5, 57-59. Mr. Whitfield heard the commotion from his bedroom and told
T.N. to hide in his closet because they were being robbed. Id. at 30, 73. A co­
defendant kicked in Mr. Whitfield’s door, pointed a gun at his head, and told him to
get on the ground. Id. at 30, 75. L.B. was escorted at gunpoint to Mr. Whitfield’s
room to retrieve her purse. Id. at 5. While L.B. was retrieving her purse from Mr.
Whitfield’s closet, one co-defendant spotted T.N. inside and pulled her out. Id. at 6.
At gunpoint, L.B. was forced to give the co-defendants her debit card. Id. at 5-6.
The co-defendants held the four victims against their will from approximately
1:30 a.m. until 4:00 a.m. Id. at 82. During this time, Mr. Sandies and Mr. Whitfield
were bound with duct tape and beaten. Id. at 60, 76-77. The co-defendant in
pantyhose and a co-defendant in a ski mask took L.B, and T.N. to a bedroom where

3 For the sake of clarity, Petitioner, Mr. Moreland, and Mr. Hendrix are referred to collectively as
“co-defendants.”
3

Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 4 of 23

the co-defendants vaginally raped both of them. Id. at 7-9, 31-33. L.B. testified that
after the co-defendants finished raping T.N. and L.B. the first time, they switched
and raped the other victim. Id. at 7-8. T.N. testified that after she was raped the first
time from behind, the same co-defendant raped her the second time while she laid
on the bed in Mr. Sandies’ room. Id. at 34-35. After the co-defendant in pantyhose
had finished raping L.B., he then forced her at gunpoint to perform fellatio on him
until he ejaculated. Id. at 8-10. L.B. feared for her life. Id. at 11. After the co­
defendant in a ski mask finished vaginally raping T.N., he forced her to perform
fellatio until he ejaculated. Id. at 36-37. L.B. and T.N. did not consent to any of the
sexual offenses committed against them and were threatened with a firearm to
perform the sexual acts. Id. at 24-25, 47-48. While the co-defendants raped the
victims, the other armed co-defendant held Mr. Sandies and Mr. Whitfield in another
room. Id. at 77-78.
The co-defendants told Mr. Sandies and Mr. Whitfield to open their mouths
and the co-defendants placed guns in their mouths, telling them to bite down on the
barrels. Id. at 62-63, 79. T.N. was forced into Mr. Whitfield’s room and vaginally
raped for the third time. Id. at 43-44. Following this rape, T.N. rejoined L.B., Mr.
Sandies, and Mr. Whitfield in the living room. Id. at 44-45.
The co-defendants violently stomped on Mr. Sandies and Mr. Whitfield with
their feet, threw stereo .equipment on their backs, jumped from the_couch_onto_ their
4

Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 5 of 23

backs, and struck them with the stocks of the firearms. Id. at 13, 17, 44-45, 61, 63,
16-11. A co-defendant took L.B. to a separate room and vaginally raped her twice.
Id. at 13-16. After these two rapes, L.B. rejoined T.N., Mr. Sandies, and Mr.
Whitfield in the living room with all the co-defendants. Id. at 27.
In the living room, the co-defendant masked in pantyhose forced T.N. and
L.B. to perform fellatio on him at gunpoint. Id: at 17-19, 46. The armed co­
defendants then forced L.B. and T.N. to put their mouths on each other’s vaginas.
Id. at 19-20, 39-40. Afterward, a co-defendant forced L.B. to perform fellatio on
him. Id. at 20. The co-defendants told the four victims that only two of them would
survive. Id. at 25-26.
Throughout the night, the co-defendants demanded to know where the money
and weed were located. Id. at 42, 48, 49, 75-76. While two co-defendants held the
individuals against their wills, the other co-defendant searched the home for money
and valuable items. Id. at 48, 81. Altogether, the co-defendants robbed Mr. Sandies
of his clothes, electronics, wallet, and Xbox, Mi'. Whitfield of his DVD player, and
L.B. of her debit card and iPod. Id. at 6, 22-23, 66.
Although Mr. Sandies and Mr. Whitfield were already bound, L.B. and T.N.
were forced to tie them up with a cord and a belt. Id. at 12-13, 49. When a codefendant decided L.B. did not tie the cord tight enough, he slapped her. Id. at 1213. The three co-defendants then took Mr. Whitfield into the garage while-T.N.,
5

Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 6 of 23

L.B., and Mr. Sandies remained in the living room. Id. at 21, 49, 64, 80. The victims
heard a gunshot. Id. at 21, 50, 64, 80. T.N. realized that one of the co-defendants had
accidentally shot another co-defendant. Id. at 50. The three co-defendants instructed
the victims to stay down and left the house. Id. at 51. The four victims subsequently
left the house and called the police. Id. at 51-53.
One of the co-defendants, Mr. Hendrix, was shot and he went to a hospital for
treatment. Id. at 84-85. After the victims reported the crimes to law enforcement,
Oklahoma State Bureau of Investigation Agent Michael Dean investigated the case.
Id. at 83. Agent Dean spoke with Mr. Hendrix and identified Petitioner in
surveillance footage images at the hospital where Mr. Hendrix was being treated for
a gunshot wound. Id. at 84-85. On approximately May 2, 2009, Petitioner was taken
into custody and told Agent Dean that Ms. Cotton was the mother of two of his
children and that Mr. Sandies had a cell phone for which Ms. Cotton was paying and
he felt Mr. Sandies should give her the money. Id. at 86, 87. Petitioner initially
denied sexually assaulting L.B. and T.N. Id. at 89. He then admitted that he
attempted to rape L.B. but could not obtain an erection, so he forced L.B. to perform
fellatio on him and that resulted in his ejaculating. Id. at 91. Petitioner admitted that
the three co-defendants planned the burglary with the intent to obtain money by
force. Id. at 87-89. Petitioner admitted that while one co-defendant searched the
residence for valuables, the other co-defendants would confine the four victims at
6

Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 7 of 23

gunpoint. Id. at 90. He admitted taking property from the residence. Id. at 89-90.
Petitioner’s post-conviction appellate history is lengthy and set out fully in
this Court’s previous Order. See Doc. No. 42. Thus, there is no reason to repeat the
same herein. Of relevance currently is this Court’s previous conclusion that
Petitioner’s second ground for relief does not present a cognizant claim for habeas
relief and his third ground is procedurally barred from review. Id. at 5. Accordingly,
the only grounds for relief remaining at issue are Petitioner’s first ground, in which
he contends his convictions for Burglary in the First Degree and Conjoint Robbery
with a Firearm violate his right to be free of double jeopardy, and his fourth ground,
in which he argues his guilty plea was coerced. Pet. at 5, 9-10.
In the Response, Respondent contends Petitioner has waived his double
jeopardy claim and alternatively, it is without merit. Resp. at 12-21. Additionally,
Respondent contends the record establishes Petitioner’s guilty plea was knowing and
voluntary. Id. at 29. Because the Oklahoma Court of Criminal Appeals failed to
properly address either of these claims when presented, this Court provides both
grounds for relief a de novo review. Doc. No. 42 at 2-5 (citing LeBere v. Abbott, 732
F.3d 1224, 1234 n.12 (10th Cir. 2013); Gipsonv. Jordan, 376 F.3d 1193,1996 (10th
Cir. 2004)).
II. Standard of Review of Constitutional Claims
Under the Antiterrorism and Effective Death Penalty Act (“AEDPA”), a
7

V.

' Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 8 of 23

i

-!

federal’ court cannot grant'habeas relief with respect to a state prisoner’s
i

.

.

...

t-

,

constitutional claim that was adjudicated on the merits in state court proceedings
unless the state court decision (1) was “contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court
\

,

of the United States,” or (2) “was based on an unreasonable determination of the
facts1 in light of the evidence presented in the State court proceeding.” 28 U.S.C.
§2254(d). The AEDPA directs courts to “ensure a level of ‘deference to the
determination's of state courts,’ provided those determinations did not conflict with
federalTaw dr ’apply federal law in an unreasonable way.” Williams v. Taylor, 529
U S.1362; 386 (2000j (quoting H.R! Conf. Rep. No. *104-5 i 8, p.. 111 (1996)).
'

!

-

Under-this standard,'a writ of habeas corpus will issue only if “a state court’s

application of federal law ... is so erroneous that there is no possibility fairminded
jurists could disagree that the state court’s decision conflicts with [the Supreme]
Court’s precedents'Nevada v.' Jackson, 569 U.S.* 505, 508-09 (2013) (quotations
!

■ ' omitted). Under this deferential'standard,' even a showing of “clear error will not
v ‘suffice.” White v^WoodMl 572U.SL 415,‘v419l(2014) (quotations omitted).
l*" “[W]lietlief
a state court’s clecisibh was umeasonable must be:assessed in light
;
:

oftheYecord tlib.[state appellate] court'had before itHoilandv. 'Jackson, 542 U.S.
*

•

~ f* *

•

» *'*•

♦ *

< ■ ' M! -. ..

j

.

.

i

*

.

jr ’

*

• * j't i Cl

ii

if

1 \ ’r

' 1 |

r

*

649,J 652 (2004) (citations'omitted). Consequently, federal habeas “review is limited
-

■ >

;,

■

’ f

■ n

i

1 ■

U

(

'

*

^ f^

■)

^ \

j i j

*

t

f

■torthe-record-that-was-befdre-the-state-court-that-adjudicated-the-claim-on-themeritsf1
8

I

;

Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 13 of 23

court must defer to that conclusion.” Jump, 28 F. App’x at 768 (quoting Cummings,
161 F.3d at 614). “In the absence of clear legislative intent, courts must apply the
Blockburger test, which provides that ‘where the same act or transaction constitutes
a violation of two distinct statutory provisions, the test to be applied to determine
whether there are two offenses or only one, is whether each provision requires proof
of a fact which the other does not.”’ Smith v. Allbaugh, No. 13-CV-0476-JHP-TLW,
2016 WL 3039885, at *4 (N.D. Okla. 2016) (quoting Blockburger v. United States,
284 U.S. 299, 304 (1932)).
In this case, Petitioner’s convictions did not constitute multiple punishments
for the same offense in violation of the Fifth Amendment because each offense
requires proof of a fact the other does not. Indeed, the Tenth Circuit has considered
whether convictions for robbery and burglary under Oklahoma law generally violate
double jeopardy and concluded they do not.
Under Blockburger, multiple convictions do not violate double
jeopardy if each offense requires proof of an element not contained in
the other. United States v. Dixon, 509 U.S. 688, 696 [] (1993). Under
Oklahoma law, different elements are required to prove burglary and
robbery, compare Okla. Stat. tit. 21, § 1431 (setting forth elements of
burglary in first degree) with id. § 791 (setting forth elements of
robbery), and it is therefore not a violation of double jeopardy to charge
a defendant with both crimes based on a single criminal episode.
Cannon v. State, 827 P.2d 1339, 1342 (Okla. Crim. App. 1992).
Jump, 28 F. App’x at 768 n.5.
As referenced in Jump, Oklahoma law defines Burglary in the First Degree as
13

Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 14 of 23

breaking into and entering the “dwelling house of another, in which there is at the
time some human being, with intent to commit some crime therein ...

Okla. Stat.

tit. 21, § 1431. By contrast, Conjoint Robbery with a Firearm is defined as “[a]ny
person or persons who, with the use of any firearms . . robs any person or peisons,
or who robs ... any .

residence ... inhabited or attended by any person or persons

at any time, either day or night... ” Okla. Stat. tit. 21, § 801. Thus, Burglary in the
First Degree required only breaking into a house with the intent to commit a crime,
while Conjoint Robbery with a Firearm required the use of a firearm in robbing or
attempting to rob an individual. See supra.
Moreover, the Oklahoma Court of Criminal Appeals has explained,
“[Bjurglary and other offenses committed within the structure burgled do not merge,
and conviction of both does not violate double jeopardy protections. The burglary .
.. was complete when he entered the victims’ residence with the intent to commit a
crime. The offenses [he] committed after entry [were] separate and distinct.” Taylor
v State, 889 P.2d 319, 339 (Okla. Crim. App. 1995) (footnotes omitted). See Jump,
28 F. App’x at

768 (“[I]f the highest state court determines that the legislature

intended to punish separate offenses cumulatively, a federal habeas court must defer
to that conclusion.” (quotations omitted)).
Thus, the undersigned concludes Petitioner’s convictions did not constitute
in violation of the Fifth Amendment
multiple punishments for the same offense in
14

Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 15 of 23

because each offense requires proof of a fact that the other does not. Additionally,
this conclusion is supported by the determination of the Oklahoma Court of Criminal
Appeals, to which the federal courts must defer. Jump, 28 F. App’x at 768; Taylor,
889 P.2d at 339. Accordingly, Petitioner’s first ground for relief is meritless, and
habeas relief should be denied.
IV. Guilty Plea
In his final ground for relief, Petitioner contends the trial court and his trial
counsel coerced him into entering his guilty pleas. Pet. at 9. In support of this
assertion, he argues said coercion is “demonstrated by the type-written statement
made by trial court that Petitioner read, but did write himself.” Id.
The Due Process Clause of the Fourteenth Amendment requires that a
defendant knowingly and voluntarily enter a plea of guilty. Boykin, 395 U.S. at 242.
“On review, a federal court may set aside a state court guilty plea only for failure to
satisfy due process.” Cunningham v. Diesslin, 92 F.3d 1054, 1060 (10th Cir. 1996).
“The longstanding test for determining the validity of a guilty plea is whether the
plea represents a voluntary and intelligent choice among the alternative courses of
action open to the defendant.” Hill v. Lockhart, 474 U.S. 52, 56 (1985) (quotations
omitted). A guilty plea is constitutional “if the circumstances demonstrate that the
defendant understood the nature and the consequences of the charges against him
and ... voluntarily chose to plead guilty.” Miles v. Dorsey, 61 F.3d 1459, 1466 (10th
15

Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 16 of 23

Cir. 1995); see also Boykin, 395 U.S. at 242-44 (explaining that a federal court will
uphold a state court guilty plea if the circumstances demonstrate the defendant
understood the nature and the consequences of the charges against him and
voluntarily chose to plead guilty).
Here, the record shows that on October 4, 2010, Petitioner appeared with trial
counsel and entered guilty pleas to the charges against him in Case No. CF-2009100. Doc. No. 34-1 at 1-3. The “plea of guilty and summary of facts” form reflects
Petitioner knew he was charged with each of the fifteen felony offenses, and the
form shows the range of punishment for each crime. Id. at 7-17. Petitioner signed
this form indicating that he (1) had read and understood the document; (2)
understood the nature and consequences of the proceeding; (3) had read and
understood the charges; (4) had discussed the charges and any possible defenses with
his attorney; and (5) understood the range of punishment for the crimes charged. Id.
at 8, 9, 10, 17, 20-21. Petitioner also indicated on the plea form that he understood
that the court was not bound by any agreement or recommendation and that the court
could sentence him within the range of punishment listed in the form. Id. at 10.
The guilty plea form informed Petitioner that if he went to trial (1) he had a
right to counsel; (2) he was presumed innocent of the charges; (3) he had a right to
remain silent; (4) he had the right to confront the witnesses against him; (5) he had
a right to call witnesses and to present a defense; (6) the State was required to prove
16

Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 17 of 23

his guilt beyond a reasonable doubt; (7) a jury verdict would have to .be unanimous,
and (8) he could waive jury trial and be tried by a judge. Id. Petitioner acknowledged
that he understood these rights, that he had discussed these rights with counsel, that
he understood he was waiving these rights by pleading guilty, and that he was
pleading guilty of his own free will without coercion or compulsion of any kind. Id.
at 10, 11. Petitioner indicated that he had not been forced to enter the pleas or
promised anything by anyone to enter his pleas. Id. at 11. The factual basis for the
pleas reflects the following statement, which the Petitioner read in court:
On or about May 1, 2009, at approximately 1:00 a.m. I followed
Ladonna Cotton to the residence of Mathis Whitfield and Claude
Sandies located in Logan County, State of Oklahoma. Along with
Corey Moreland and Douglas Hendrix we entered the residence without
permission after Douglas Hendrix kicked in the door. My purpose in
forcibly entering the house was to take money, by force if necessary,
for Ladonna Cotton. We had firearms which were pointed at the four
occupants inside. They were Mathis Whitfield, Claude Sandies, a
female known to me by the initials L.B., and a female known to me by
the initials T.N. All four were held at gunpoint and forced to remain in
the residence while I searched the house for money and property.
Although I may not have personally performed every criminal act
committed in the residence that morning, I did act conjointly with
Douglas Hendrix and Corey Moreland in all of those criminal acts and
I admit that I am criminally responsible for all of those acts, and
therefore guilty of those acts.
While acting in concert with Hendrix and Moreland I was a conjoint
participant in the rape, forcible sodomy and sexual battery of both
females. The women were raped multiple times. The men were beaten.
Throughout the time at the residence all three of us were present in the
house and masked the entire time.
Id. at; 11, 19; Doc. No. 47-2 at 99-100.
17

Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 18 of 23

Petitioner’s

signature on the guilty plea and summary of facts form attests that

his attorney completed the form, that he had gone over the form with his attorney,
that he understood the contents of the form and agreed with the answers contained
therein, and that the answers on the form were true and correct. Doc. No . 34-1 at 12,
17. At the plea hearing, the court noted Petitioner “had been to college so I trust
there is no mystery in [your] written plea of guilty,” to which Petitioner responded,
“No.” Doc. No. 47-2 at 95.
to a jury trial, to

Petitioner also acknowledged in court that he had a right

confront the witnesses against him, a right to remain silent upon

which the State could not comment, a right to testify, that a jury was waiting to try
his case

should he so choose, and that he was waiving each of those rights by entering

a guilty plea. Id. at 93-95
against him

. Petitioner then entered a guilty plea to each of the charges

and read the factual basis for those charges aloud in court. Id. at 95 -104.

On October 14, 2010, Petitioner, through counsel, timely filed an application
to withdraw plea. Doc. No. 34-2 at 1.

In his application, Petitioner stated that he did

not fully understand or appreciate the consequences of his plea and that he was not
guilty of at least one of the offenses. Id. In a letter attached thereto, Petitioner stated
that when he entered his guilty plea, he “didn’t know they wanted me to have paper
time until the day I signed and

“I was told the mother of my children would not do

no time in prison if I took the deal that is a form of blackmail. .. ” Id. at 2. He also
asserted that the statement he read in court at the plea hearing “was not from me but

18

Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 19 of 23

it was from my public defender ...” Id.
The court held a hearing on Petitioner’s application on November 12, 2010.
Doc. No. 47-2 at 105. During the hearing, Petitioner’s attorney testified that the two
of them together drafted the factual basis for his guilty plea that Petitioner later read
aloud in court.
Q. Okay. In the course of speaking with him - - may I ask counsel to
look at the factual basis Exhibit C on State’s Exhibit 1, Counsel, what
is that?
A. That is a statement of factual basis, Exhibit C, that would accompany
a plea of guilty summary of facts, and it is about two paragraphs that
Mr. Draper and I composed and he signed off on [on October 2, 2010].
Q. And did he sign off on this in front of three other witnesses?
A. That is correct.
Q. Was his signing off on this statement voluntary?
A. It was.
Q. And you said that both or the two of you had drafted it together; is
that correct?
A. That is correct.
Q. When you went over this with Mr. Draper, did he appear to
understand these three paragraphs actually, the last saying therefore I
plead guilty to all counts?
A. He did. In. fact, we spent quite a bit of time going over the exact
language because he was very concerned about specifically what it was
that he was admitting to doing.

19

Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 20 of 23

Q. And did you discuss with Mr. Draper the concept of conjoint
criminal guilt?
A. We spent a lot of time on that, and that was probably one of the
biggest obstacles in this case because Mr. Draper had trouble
understanding the concept that he was being held criminally liable for
actions he himself did not commit; but that his co-defendants were the
ones that had specifically committed.
Id at 107-08.
Petitioner’s testimony at the plea hearing revealed that he accepted the plea
deal because he was afraid he would fare worse at trial. Id. at 109-13. Petitioner
stated that his defense counsel drafted the factual basis he read aloud in court,
however, he also admitted that it was based on his responses to counsel’s questions.
Q. Okay. Did [defense counsel] ask you questions in order to fill out
the factual basis?
A. Yes, he did.
Q. And you answered those questions.
A. Yes, I did.
Q. And the reason you actually did the plea was because you felt like
you were going to get hammered if you went to trial?
A. Oh, yes. That’s what he told me. You are going to get hammered.
You are going to get hammered. You are going to get hammered.
Id. at 111. Additionally, Petitioner indicated that since pleading guilty, “several
people” had told him that “under the accessory theory you can’t be charged with
crimes your co-defendants committed.” Id. at 112. However, he also admitted that
20

Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 21 of 23

his counsel had explained to him that he could be charged when you are acting
conjointly with others. Id. Finally, Petitioner conceded that the reason he was
seeking to withdraw his plea is that he did not like the sentences he received. Id. at
113. The trial court denied Petitioner’s application. Doc. No. 34-2 at 3.
In reviewing the record as a whole, the undersigned finds Petitioner
understood the nature and consequences of his plea. Regardless of who drafted the
statement he read during the plea hearing, Petitioner was clearly aware of its contents
and contributed to the same, signed the guilty plea and summary of facts form, stated
repeatedly both in the form and during the plea hearing that he understood his rights
and that he was waiving those rights, and that he understood the charges against him,
as well as his potential sentences.
Additionally, defense counsel’s statement to Petitioner that he was likely to
“get hammered” at trial does not change the voluntary nature of his pleas. “The Tenth
Circuit has found that a guilty plea can be voluntary despite trial counsel’s ‘vigorous
urg[ing]’ that his client plead guilty because the attorney believed it was in his
client’s best interest.” Jackson v. Jordan, No. CIV-04-1653-T, 2006 WL 2321486,
at *10 (W.D. Okla. Aug. 9, 2006) (quoting Miles, 61 F.3d at 1470). “Indeed, one
central component of a lawyer’s job is to assimilate and synthesize information from
numerous sources and then advise clients about what is perceived to be in their best
interests.’! Jades'cm, 2006 WL 2321486, at *10. Furthermore, in light of the evidence
21

Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 22 of 23

presented at the preliminary hearing, Petitioner must have known that given the
heinous nature of the crimes, his plea deal likely represented less than what a jury
would have imposed. Hoffman v. Young, 23 F. App’x 885, 888-89 (10th Cir. 2001)
(finding the petitioner understood the nature and consequences of his guilty plea and
noting that given the nature of his crime, was likely aware the plea deal was less than
he would have faced from a jury).
“It is [Petitioner’s] burden to show that his guilty plea was not knowing or
voluntary.” US. v. Jim, 786 F.3d 802, 810 (10th Cir. 2015). The undersigned finds
Petitioner has not met this burden and this ground for habeas relief should be denied.

RECOMMENDATION
Based on the foregoing findings, it is recommended the Petition for a Writ of
Habeas Corpus pursuant to 28 U.S.C. § 2254 be DENIED . Petitioner is advised of
his right to file an objection to this Fourth Supplemental Report and
Recommendation with the Clerk of this Court by

September 2nd, 2020, in

accordance with 28 U.S.C. § 636 and Fed. R. Civ. P. 72. The failure to timely object
to this Fourth Supplemental Report and Recommendation would waive appellate
review of the recommended ruling. Moore v. United States of America, 950 F.2d
656 (10th Cir. 1991); cf, Marshall v. Chater, 75 F.3d 1421, 1426 (10th Cir. 1996)
(“Issues raised for the first time in objections to the magistrate judge s
22

Case 5:18-cv-01195-R Document 60 Filed 08/13/20 Page 23 of 23

recommendation are deemed waived ”)•
This Fourth Supplemental Report and Recommendation disposes of all issues
referred to the undersigned Magistrate Judge in the captioned matter, and any
pending motion not specifically addressed herein is denied.
ENTERED this

13th

day of August, 2020.

CGARYkA-A-£,, IRCELL

UNITED ^ATES MAGISTRATE JUT\(

23

Additional material
from this filing is
available in the
Clerk's Office.

